 OFFICE OF INSPECTOR GENERAL
  for the Millennium Challenge Corporation


 AUDIT OF THE MILLENNIUM
 CHALLENGE CORPORATION’S
 FINANCIAL STATEMENTS, INTERNAL
 CONTROLS, AND COMPLIANCE FOR
 THE PERIOD ENDING SEPTEMBER
 30, 2006 AND 2005


AUDIT REPORT NO. M-000-07-001-F
November 14, 2006




WASHINGTON, DC
               Office of Inspector General
                  for the
               Millennium Challenge Corporation


               November 14, 2006


               The Honorable John J. Danilovich
               Chief Executive Officer
               Millennium Challenge Corporation
               875 15TH Street, NW
               Washington, DC 20005-2203


               Subject:             Audit of the Millennium Challenge Corporation’s Financial Statements,
                                    Internal Controls, and Compliance for the Period Ending September 30, 2006
                                    and 2005 Report No. M-000-07-001-F


               Dear Mr. Ambassador:

               Enclosed is the final report on the subject audit. The Office of Inspector General (OIG)
               contracted with the independent certified public accounting firm of Williams, Adley &
               Company, LLP to audit the financial statements of the Millennium Challenge Corporation
               (MCC) for the period ending September 30, 2006. The contract required that the audit be
               performed in accordance with generally accepted government auditing standards (GAGAS),
               Office of Management and Budget (OMB) Bulletin 06-03, Audit Requirements for Federal
               Financial Statements, and the GAO/PCIE Financial Audit Manual.

               In its audit of the MCC’s financial statements for the period ending September 30, 2006 the
               auditors found:

                     •    that the financial statements were fairly presented in conformity with generally
                          accepted accounting principals (GAAP),

                     •    six reportable conditions in the internal controls over financial reporting and its
                          operation. Five of the six reportable conditions are material weaknesses, and

                     •    three instances of material noncompliance with laws, regulations, contracts, and
                          agreements.

U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
The material weaknesses identified in MCC’s internal controls process increases the need
for MCC to develop written policies and procedures to streamline its financial operations.
Under current operating procedures, the material weaknesses, increases the risk of
improper recording, unauthorized transactions, omissions, potential funds control violations
and noncompliance with laws, regulations, contracts and grant agreements. Williams Adley
& Company LLP reported the following internal control weaknesses:

   1. MCC’s policies and procedures were not always complete and consistent. (material
      weaknesses)

   2. MCC’s policies for disbursing advances to grantees do not accommodate effective
      cash management. (material weakness and noncompliance)

   3. MCC does not have a property management system. (material weakness)

   4. MCC did not properly record compact expenses during the fiscal year. (material
      weakness)

   5. MCC’s Chief Financial Officer was not an integral part of the compact/grant
      processes. (material weakness).

   6. MCC’s travel disbursement controls and procedures do not permit effective and
      efficient management of travel.

Williams, Adley & Company, LLP also reported instances of noncompliance with laws,
regulations, contracts, and grant agreements, inclusive of those referred to in the Federal
Financial Management Improvement Act of 1996 (FFMIA) and disclosed instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards, issued by the Comptroller General of the United States, and OMB Bulletin 06-03,
Audit Requirements for Federal Financial Statements. The instances of noncompliance are:

   1. MCC did not fully comply with FFMIA and the Government Performance Results Act
      (GPRA). (material noncompliance)

   2. MCC did not fully comply with Federal Information Security Management Act
      (FISMA). (material noncompliance)

   3. MCC’s policies for disbursing advances to grantees do not accommodate effective
      cash management. (material noncompliance)

In carrying out its oversight responsibilities, the OIG reviewed Williams, Adley & Company,
LLP’s report and related audit documentation. This review, as differentiated from an audit in
accordance with GAGAS was not intended to enable the OIG to express, and we do not
express, opinions on MCC’s financial statements, or internal control; on whether MCC’s
financial management systems substantially complied with FFMIA; or on MCC’s compliance
with other laws and regulations. Williams, Adley & Company, LLP is responsible for the
attached auditor’s report, dated November 14, 2006, and the conclusions expressed in the



                                          2
report. However, our review disclosed no instances on where Williams, Adley & Company,
LLP did not comply, in all material respects, with applicable standards.

To address the internal control weaknesses and the noncompliance findings reported by
Williams Adley & Company, LLP, we are making the following recommendations to MCC’s
management:

       Recommendation No. 1: We recommend that the Millennium Challenge
       Corporation’s Department of Administration and Finance complete the
       Financial Management Policies and Procedures (FMPP) manual and implement
       the written policies and procedures for all areas that result in a financial event.

       Recommendation No. 2: We recommend that the Millennium Challenge
       Corporation:

            2.1   Develop and implement policies and procedures to ensure that the
                  payment schedules and other agreements entered into with
                  grantees are reflective of the U. S. Treasury requirements
                  concerning advances and immediate cash advances.

            2.2   Develop and implement policies and procedures to ensure that
                  disbursement requests from the accountable entity of the recipient
                  countries follow the official format that documents the cash
                  requirements for each month of the quarterly period.

            2.3   Make and document all payments to the recipient countries on a
                  monthly basis instead of a quarterly basis.

            2.4   Establish and implement policies and procedures to ensure that any
                  custodial liabilities, e.g. interest owed to the U.S. government
                  resulting from the grantee advances, are properly recorded.

       Recommendation No. 3: We recommend that the Millennium Challenge
       Corporation develop and maintain appropriate fixed asset records to ensure
       accurate reporting and physical control.

       Recommendation No. 4: We recommend that the Millennium Challenge
       Corporation’s management:

            4.1   Require that the final quarterly disbursement requests received from
                  the accountable entity of the recipient countries be made available
                  to the Department of Administration and Finance and the Fiscal
                  Accountability Office.

            4.2   Develop and implement policies and procedures that require
                  compact expenses are properly and accurately recorded and
                  reported on a quarterly basis.

            4.3   Implement written procedures requiring that appropriate and timely
                  follow-up measures are performed and recorded on late and/or
                  outstanding fund disbursements and/or advances requests.

                                        3
            4.4   Develop and implement policies and procedures that require the
                  Department of Administration and Finance to perform a thorough
                  review of the financial statements to ensure that costs are not
                  omitted.

       Recommendation No. 5: We recommend that the Millennium Challenge
       Corporation’s management revise their policies and procedures to invest the
       Office of the Chief Financial Officer with the level of responsibility, including
       role and all levels of authority established by the Chief Financial Officer Act.

       Recommendation No. 6: We recommend that Millennium Challenge
       Corporation management develop and implement internal controls to reject
       travel expense reimbursement requests that exceed the allowable country per
       diem limits unless additional electronic authorization is provided.

       Recommendation No. 7: We recommend that the Millennium Challenge
       Corporation’s management:

            7.1   Develop performance goal templates and follow-up training to
                  ensure that Government Performance Results Act (GPRA)
                  requirements are adequately addressed and consistent. We also
                  recommend that baseline data be finalized or performance
                  indicators reviewed and amended such that they can be measured
                  against obtainable data.

            7.2   Assess the automated options available to handle MCC operations
                  and develop short range and long range plans for the
                  implementation of the most appropriate information technology
                  structure to address electronic integration of at least the payroll,
                  procurement and travel functions and systems to increase the
                  efficiencies and effectiveness of the processing of financial
                  transactions and decrease the risk of errors.


In finalizing the report, we have received and considered MCC’s response to the draft report
and the recommendations included therein.

In its comments, MCC accepted all of the report’s recommendations except for 2.1.

At the time of this report, MCC had not accepted recommendation 2.1 and no management
decision has been made. Essential elements of a management decision include specific
actions, estimated completion dates for implementation, or an explanation and justification
regarding why a recommendation is not considered valid by MCC management officials.
For recommendation 2.1, MCC has not clearly stated why the recommendation is not valid.

MCC has agreed with recommendations 4 and 6 and has taken actions that implement the
recommendation. Accordingly, we are closing these two recommendations upon issuance of
the report.



                                          4
Based on MCC’s response to the remaining recommendations, we consider that a management
decision has been reached on recommendation no. 1. However, we believe a management
decision has not been reached on recommendations nos. 2.2, 2.3, 2.4, 3, 5, 7.1 and 7.2
because the decisions did not specifically identify the activities that MCC plans to conduct to
implement the recommendation and/or the decision did not specify a target implementation date
by which the recommendation will be implemented. Specifically:

       Recommendation: 2.2 --not specific and no target implementation date 

       Recommendation: 2.3 --no target implementation date 

       Recommendation: 2.4 --not specific and no target implementation date 

       Recommendation: 3 --no target implementation date 

       Recommendation: 5 --no target implementation date 

       Recommendation: 7.1 --not specific and no target implementation date 

       Recommendation: 7.2.--no target implementation date 


We discussed the lack of specificity and target dates in the management decisions with the
MCC staff and they stated that they will study these decisions and revise them accordingly.

Please forward to us within 30 days your revised management decisions for the above
recommendations.

Please inform us when you have taken final action on the recommendations.

The OIG appreciates the cooperation and courtesies extended to our staff and the staff of
Williams, Adley & Company, LLP during the audit. Please contact me or Mr. Manuel S. Avila,
IG/MCC/FA at (202) 712-1897, if you have any questions concerning this report.


Sincerely,

/s/

John M. Phee
Assistant Inspector General/MCC




                                             5
                               TABLE OF CONTENTS




                                                        Page

Independent Auditor’s Report                             1

  Opinion on the Financial Statements                    2

  Internal Control Over Financial Reporting              3

  Compliance with Laws and Regulations                  15

  Status of Prior Year Findings – Appendix A            20

  Management Comments and Our Evaluation – Appendix B   26

  Management Comments – Appendix C                      30

Statements of Financial Position                        35

Statements of Operations and Changes in Net Position    36

Statements of Functional Expenses                       37

Statements of Cash Flows                                38

Statements of Budgetary Resources                       39

Notes to Financial Statement                            40
                            Williams Adley & Company, LLP
Certified Public Accountants/Financial Management Consultants




                                      Independent Auditors’ Report


Inspector General
United States Agency for International Development

Board of Directors
Millennium Challenge Corporation

We have audited the accompanying Statements of Financial Position of the Millennium
Challenge Corporation (MCC or Corporation) as of September 30, 2006 with summary totals
for September 30, 2005, and the related Statements of Operations and Changes in Net
Position, Cash Flows, and Budgetary Resources for the year ended September 30, 2006 with
summary totals for September 30, 2005. These financial statements are the responsibility of
Corporation management. Our responsibility is to express an opinion on these financial
statements based on our audit.

In connection with our audit, we also considered the MCC’s internal control over financial
reporting and tested the MCC’s compliance with certain provisions of applicable laws,
regulations, contracts and grant agreements that could have a direct and material effect on the
financial statements.

SUMMARY

As stated in our opinion, we concluded that the MCC’s financial statements as of and for the
year ended September 30, 2006 with summary totals for September 30, 2005 are presented
fairly, in all material respects, in conformity with accounting principles generally accepted in
the United States of America.

Our consideration of internal control over financial reporting and its operation resulted in six
matters that we consider to be reportable conditions. We believe that five of the six
reportable conditions are material weaknesses.

    1     MCC’s Policies and Procedures Were Not Always Complete and Consistent
          (material weakness)

    2. MCC Policies for Disbursing Advances to Grantees Do Not Accommodate Effective
       Cash Management (material weakness and noncompliance)



        1250 H Street, NW, Suite 1150 ● Washington, DC 20005 ● (202) 371-1397 ● Fax: (202) 371-9161
   3. MCC Does Not Have a Property Management System (material weakness)

   4. MCC Did Not Properly Record Compact Expenses During the Fiscal Year (material
      weakness)

   5. MCC’s Chief Financial Officer Was Not an Integral Part of the Compact/Grant
      Processes (material weakness)

   6. MCC’s Travel Disbursement Controls and Procedures Do Not Permit the Effective
      and Efficient Management of Travel (reportable condition)

The results of our tests of compliance with certain provisions of laws, regulations, contracts,
and grant agreements, inclusive of those referred to in the Federal Financial Management
Improvement Act of 1996 (FFMIA), disclosed three instances of noncompliance or other
matters that are required to be reported herein under Government Auditing Standards, issued
by the Comptroller General of the United States, and Office of Management and Budget
(OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements:

   1. MCC did not fully comply with FFMIA and Government Performance and Results
      Act (GPRA) (material noncompliance)

   2. MCC did not fully comply with Federal Information Security Management Act
      (material noncompliance)

   3. MCC Policies for Disbursing Advances to Grantees Does Not Accommodate
      Effective Cash Management (material weakness and noncompliance)

The following sections discuss our opinion on the MCC’s financial statements, our
consideration of the MCC’s internal control over financial reporting, our tests of the MCC’s
compliance with certain provisions of applicable laws, regulations, contracts, and grant
agreements, and the distribution of our report. The status of prior year findings is included as
Appendix A. Management’s response to the findings and our evaluation of said response is
included as Appendix C and Appendix B, respectively.


OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying Statements of Financial Position of the Corporation as of
September 30, 2006 with summary totals for September 30, 2005, and the related Statements
of Operations and Changes in Net Position, Cash Flows, and Budgetary Resources for the
year ended September 30, 2006 with summary totals for September 30, 2005. These
financial statements are the responsibility of Corporation management. Our responsibility is
to express an opinion on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and standards applicable to financial statement audits contained in



                                         Page 2 of 48
Government Auditing Standards, issued by the Comptroller General of the United States, and
the Office of Management and Budget (OMB) Bulletin No. 06-03, Audit Requirements for
Federal Financial Statements. Those standards require that we plan and perform the audit to
obtain reasonable assurance that the financial statements are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating the
overall financial statement presentation. We believe that our audit provides a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial positions of the Corporation as of September 30, 2006 with summary
totals for September 30, 2005, and changes in net position, cash flows and budgetary
resources for the year ended September 30, 2006 with summary totals for September 30,
2005, in conformity with accounting principles generally accepted in the United States of
America.

Our audit was made for the purpose of forming an opinion on the basic financial statements
of the Corporation taken as a whole. The information contained in the Management’s
Discussion and Analysis and Performance Section is not a required part of the financial
statements, but is supplementary information required by the Federal Accounting Standards
Advisory Board guidance. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and
presentation of the information. However, we did not audit the information and do not
express an opinion thereon.

The accompanying Statements of Functional Expenses for the year ended September 30,
2006, and as summarized for year ended September 30, 2005, are presented for purposes of
additional analysis and are not a required part of the basic financial statements. This
statement is the responsibility of the management of the Corporation. The information in this
statement has been subjected to the auditing procedures applied in our audit of the basic
financial statements and, in our opinion, is fairly stated in all material respects when
considered in relation to the basic financial statements taken as a whole.


INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our fiscal year 2006 audit, we considered MCC’s internal control
over financial reporting by obtaining an understanding of MCC’s internal control, determined
whether internal controls had been placed into operation, assessed control risk, and
performed tests of controls in order to determine our auditing procedures for the purpose of
expressing an opinion on the financial statements. We limited our internal control testing to
those controls necessary to achieve the objectives described in OMB Bulletin No. 06-03 and
Government Auditing Standards. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982
(FMFIA), such as those controls relevant to ensuring efficient operations. The objective of



                                        Page 3 of 48
our audit was not to provide assurance on internal control; accordingly, we do not provide an
opinion on internal control.

Our consideration of internal control over financial reporting would not necessarily disclose
all matters that might be reportable conditions. Under standards issued by the American
Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control
over financial reporting that, in our judgment, could adversely affect MCC’s ability to record,
process, summarize, and report financial data consistent with the assertions by management
in the financial statements.

Material weaknesses are reportable conditions in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk that
misstatements, in amounts that would be material in relation to the financial statements being
audited, may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Because of inherent limitations in internal
controls, misstatements, losses or noncompliance may occur and not be detected.

We noted six matters involving the internal control over financial reporting and its operation
that we consider to be reportable conditions. We believe that five reportable conditions are
material weaknesses. All material weakness and the reportable condition are described on
pages 4-15.

MATERIAL WEAKNESSES

MCC’s Policies and Procedures Were Not Always Complete and Consistent (material
weakness)

Condition:

During fiscal year (FY) 2006, the Millennium Challenge Corporation (MCC) used various
processes to address the financial aspects of its operations. These processes evolved during
the year as the organization grew in both number of personnel and span of operations.
However, during this growth, the development and implementation of final written policies
and procedures to guide MCC’s streamlined operational structure was not adequately
addressed. During the fiscal year, MCC lacked final written policies and procedures.
Written policies and procedures must be in place to ensure operational efficiencies, risk
reduction, and consistent application. Several policies and procedures, i.e. advances, budget,
and accruals, remained in draft form, throughout the year. Additionally, several procedures
do not address the responsible positions at the various control levels for the processing of
data/data entry functions, or submission and approval levels and procedures in the areas of
fixed assets and the open obligations review required revision.

While the current Department of Administration and Finance (A&F) management team has
emphasized the preparation and issuance of a comprehensive financial management policies
and procedures (FMPP) manual, as of the end of the FY, such a manual was being drafted.



                                         Page 4 of 48
MCC has hired contractors to assist in the production of the FMPP manual by December 31,
2006.

Criteria:

The GAO “Standards for Internal Control in the Federal Government” states that internal
control and all transactions and other significant events need to be clearly documented and
the documentation should be readily available for examination. The documentation should
appear in management directives, administrative policies, or operating manuals. Also,
information should be recorded and communicated to management and others within the
entity who need it and in a form and within a timeframe that enables them to carry out their
internal control and other responsibilities.

Additionally, management and employees should establish and maintain an environment
throughout the organization that sets a positive and supportive attitude toward internal
control and conscientious management. A positive control environment is the foundation for
all other standards. It provides discipline and structure as well as the climate which
influences the quality of internal controls.

Cause:

Division of Finance (within the Department of A&F) management stated that they have not
had the available personnel to sufficiently dedicate to the development and issuance of final
policies and procedures during the year.

Effect:

The lack of sufficient detail and accountability in the procedures produced inconsistent
application of controls and processes, and increased the risk of errors, improper recording,
unauthorized transactions, omissions and potential funds control violations. Furthermore, the
lack of formal procedures can result in noncompliance with laws and regulations. Also, the
effective and efficient processing of financial transactions is diminished. Examples of the
effect of the lack of final MCC policies and procedures include:
    ¾ The policy established for the proper recording of fixed assets was not followed
        during the year, thereby resulting in potentially incorrect posting of asset transactions.
    ¾ Employees travel claims were greater than the approved per diem rates.
    ¾ Compact expenses were not reported in the third quarter financial statements.

Recommendation #06-01:

We recommend that Millennium Challenge Corporation’s Department of Administration and
Finance complete the Financial Management Policies and Procedures (FMPP) manual and
implement the written policies and procedures for all areas that result in a financial event.




                                          Page 5 of 48
Management Response:

MCC accepts the recommendation and is currently implementing relevant corrective action.
Specifically, the Division of Finance (within the Department of Administration and Finance)
initiated an effort during the summer 2006 to develop and implement a comprehensive
corporate Financial Management Policies and Procedures (FMPP) manual. The Division is
utilizing contractor support in this endeavor. The initial version of the FMPP manual is
slated to be completed and formally institutionalized by December 31, 2006.


MCC Policies for Disbursing Advances to Grantees Do Not Accommodate Effective Cash
Management (material weakness and noncompliance)

Condition:

MCC entered into various compacts and provided several advances during fiscal year 2006.
MCC personnel indicated that monthly disbursements were made based upon the quarterly
request. However, we noted that for most Millennium Challenge Authorities (MCAs), MCC
disbursed funds on a quarterly basis based upon the disbursement request, rather than
monthly. We noted that several disbursements were not used within 30 days nor the quarter.

                                                         Projected        Date when
                                                       Cash Balance    disbursement was
                     Date of           Amount of       at September       completely
 Country          Disbursement       Disbursement         30, 2006         expended
Madagascar     July 28, 2005         $ 2,500,924      -               March 30, 2006
               December 13, 2005     $ 1,755,506      -               June 30, 2006
               May 31, 2006          $ 5,391,665      $2,311,342      Not expected to be
                                                                      expended by
                                                                      September 30, 2006

Georgia        May 2, 2006        $ 3,603,404         $221,594        Not expected to be
               September 15, 2006 $6,509,706          6,509,706       expended by
                                                                      September 30, 2006

Honduras       February 28, 2006  $ 1,646,545         $138,840        Not expected to be
               September 29, 2006 $1,369,849          $1,369,849      expended by
                                                                      September 30, 2006

Cape Verde     February 1, 2006      $ 7,526,864      $3,913,663      Not expected to be
                                                                      expended by
                                                                      September 30, 2006

Vanuatu        June 30, 2006         $ 1,127,055      $1,023,658      Not expected to be
               August 9, 2006        $ 219,504        $219,504        expended by
               September 6, 2006     $ 111,688        $111,688        September 30, 2006


                                       Page 6 of 48
                                                          Projected        Date when
                                                       Cash Balance     disbursement was
                     Date of       Amount of            at September       completely
   Country        Disbursement    Disbursement             30, 2006         expended
               September 18, 2006 $ 116,377            $116,377

Nicaragua      June 30, 2006          $ 1,483,399      433,889         Not expected to be
               August 28, 2006        $ 378,550        378,550         expended by
               August 31, 2006        $ 289,110        289,110         September 30, 2006

The Department of the Treasury’s Financial Management Service publications did not
envision the inclusion of sovereign governments; however, in the analysis of cash
management, we used the Treasury Financial Manual (TFM) as a valuable source of sound
business practices. The TFM is the Department of the Treasury's official publication for
financial accounting and reporting of all receipts and disbursements of the Federal
Government. The purpose of the TFM is to provide policies, procedures, and instructions for
Federal departments and agencies to follow in carrying out their fiscal responsibilities.

Also, through various OMB Circulars, OMB has attempted to address the need for advances
to cover immediate cash needs or timely disbursements of an entity for direct program costs
for carrying out the purpose of the approved program or project. Thus, funds paid to a
grantee are not to be held, but are to be promptly applied to the grant purpose. Although the
timeframe for immediate cash needs has not been clearly defined by OMB, the general rules
employed by various Federal agencies are 30 days for non-governmental entities as outlined
in the TFM. Based upon this definition, MCC has provided Federal funds in excess of
immediate cash needs.

Criteria:

Per the Appropriations Law Volume II, advances under an assistance program are intended to
accomplish the program purposes and not to profit the recipient other than in the manner and
extent specified in the program. Section 2025 of the Treasury Financial Manual –Volume 1,
Part 6-Chapter 2000, states that advances to a recipient organization will be limited to the
minimum amounts necessary for immediate disbursement needs and will be timed to be in
accordance with the actual immediate cash requirements of the recipient organization in
carrying out the purpose of an approved program or project. The timing and amount of cash
advances will be as close as is administratively feasible to actual disbursements by the
recipient organization.

Best business practice defines immediate cash needs as money used for the purpose of
carrying out the Compact’s approved programs within a thirty day period. Also, when funds
are drawn from Treasury before it is needed, or in excess of current needs, the government
loses the use of the funds.




                                        Page 7 of 48
Cause:

The approved agreements entered into by MCC with MCA Madagascar and other compact
grantees indicate that quarterly advances will be provided based upon their estimated costs.
Although, MCC’s management has changed the policy, it has not been effectively
implemented and monitored to ensure that it occurs.

Effect:
MCC received a total of $304,000 in interest from compact countries during the first three
quarters of FY 2006 and remitted this amount to Treasury. As of the end of FY 2006 the
additional $174,402 of interest is due to MCC. MCC has not adopted an approach that
provides funds only for a grantee’s immediate cash needs and reduces the risk of
misappropriation.

Recommendation # 06-02:

We recommend that Millennium Challenge Corporation:

   (1) Develop and implement policies and procedures to ensure that the payment schedules
       and other agreements entered into with grantees are reflective of the U.S. Treasury
       requirements concerning advances and immediate cash needs.
   (2) Develop and implement policies and procedures to ensure that all disbursement
       requests from the accountable entity of the recipient countries follow the official
       format that documents the cash requirements for each month of the quarterly period.
   (3) Make and document all payments to the recipient countries on a monthly basis
       instead of a quarterly basis.
   (4) Establish and implement policies and procedures to ensure that any custodial
       liabilities, e.g. interest owed to the U.S. government resulting from the grantee
       advances, are properly recorded.

Management Response:

MCC Management accepts recommendations 2.2, 2.3, and 2.4. Regarding recommendation
2.1, MCC intends to follow sound cash management practices, will disburse funds consistent
with the GAO policy based upon what is needed to meet grant purposes in any given quarter,
though the funds will be released in tranches following a monthly schedule.

MCC has begun implementing needed corrective actions. The MCC FMPP manual
(currently being developed – see above management response to recommendation 1) will
contain definitive documentation and disbursement requirements for transferring funds to
compact countries. Furthermore, the Division of Finance, in coordination with the National
Business Center (MCC’s financial services provider) has already implemented procedures to
disburse funds to compact countries monthly in accordance with identified funding needs per
pertinent quarterly disbursement requests.




                                       Page 8 of 48
MCC Does Not Have a Property Management System (material weakness)

Condition:

We noted that MCC reported $5,656,567 in property as of June 30, 2006; however, they were
unable to provide detailed records to support the amount reported. The MCC does not have a
property management system that provides detail information on original cost, date of
purchase, location, useful life, depreciation, and accumulated depreciation.

For the year end financial statements, sufficient analysis was performed to ensure consistent
application of the capitalization policy and to determine an appropriate measure of
depreciation expense to ensure that fixed assets would be fairly stated.

Criteria:

OMB Circular A-127 “Policies and Standards for Financial Management Systems” states
that financial management in the Federal government requires accountability of financial and
program managers for financial results of actions taken, control over the Federal
government's financial resources and protection of Federal assets. To enable these
requirements to be met, financial management systems must be in place to process and
record financial events effectively and efficiently, and to provide complete, timely, reliable
and consistent information for decision makers and the public.

The Joint Financial Management Improvement Program (JFMIP) standards require that
property management systems assist managers in collecting and maintaining information for
financial reporting in accordance with generally accepted accounting principles and
managing the various types of property. Additionally, they should assist managers in
ensuring that assets are safeguarded against improper use or disposition.

Cause:

MCC did not create a property management system to support its property financial policy
nor did management ensure that an accountable employee was assigned to ensure its
implementation.

Effect:

The quarterly financial statements may be misstated due to the inaccurate recording and
reporting of property and depreciation expense. In the June 30, 2006 financial statements, no
depreciation expense was recorded. Lack of sufficient controls over property can result in
loss, waste and abuse of federal resources.

Recommendation #06-03:

We recommend that Millennium Challenge Corporation develop and maintain appropriate
fixed asset records to ensure accurate reporting and physical control.



                                        Page 9 of 48
Management Response:

MCC management accepts the recommendation. The Department of Administration and
Finance has begun planning and defining requirements for implementing a viable property
management system and associated controls and processes, including periodic physical
counts to verify the Corporation’s property holdings and ensure the propriety of perpetual
property records and related financial balances.


MCC Did Not Properly Record Compact Expenses During the Fiscal Year (material
weakness)

Condition:

As a result of our review of the third quarter financial statements, we noted that MCC did not
report any compact program costs. Although MCC had received disbursement requests that
can be used to post the expenses incurred, nothing was recorded. According to the compact
and disbursement agreement, each MCA is required to submit quarterly disbursement
requests that include the expenses incurred to date. These requests are due regardless of the
need for funding. The requests should provide the following:

    •   Previous quarter advances;
    •   Previous quarter disbursements;
    •   Estimated expenses; and
    •   Next quarter’s advance request.

For the year end financial statements, MCC recorded compact expenses of $8,493,394.
Additional analysis was performed utilizing the disbursement requests to increase expenses
recorded and to ensure that advances and compact expenses were fairly stated.

Criteria:

OMB Circular A-136 “Financial Reporting Requirements”, Section II.4.4.3, Program Costs,
states that the reporting entity should report the full cost of each program’s output, which
consists of (a) direct cost and indirect costs of the output, and (b) the costs of identifiable
supporting services provided by other segments within the reporting entity and by other
reporting entities. The reporting entity should accumulate and assign costs in accordance
with the costing methodology in Statement of Federal Financial Accounting Standard
(SFFAS) No. 4.

In Section 3.2 of the disbursement agreements, it states that the MCA shall deliver to MCC a
completed MCC disbursement request in the form attached hereto as Exhibit A, and
otherwise satisfactory to MCC in content. Exhibit A section E, commitment and expenditure
report provides for the reporting of cumulative actual redisbursements and projected
redisbursements.


                                          Page 10 of 48
Cause:

The Fiscal Accountability Office is responsible for the collection of the required quarterly
expense/disbursement requests, and they have encountered many problems recovering the
reports from the various MCAs. The requests are not sent directly to the Division of Finance
and must be provided by the Fiscal Accountability Office. Additionally, MCC is not
enforcing the requirement and the compact and disbursement agreements appear to lack
sufficient strictures for noncompliance.

MCC did not perform a sufficient review of the financial statements to address the omission
of the compact expenses.

Effect:

As a result of the nonrecording of compact expense, the MCC quarterly financial statements
were inaccurate and MCC management’s ability to rely on the financial statements to make
informed decisions was impaired.

Recommendation #06-04:

We recommend that Millennium Challenge Corporation’s management:

   (1) Require that the final quarterly request received from the accountable entity of the
       recipient countries be made available to the Department of Administration and
       Finance and the Fiscal Accountability Office.

   (2) Develop and implement policies and procedures that ensure compact expenses are
       properly and accurately recorded and reported on a quarterly basis

   (3) Implement written procedures requiring that appropriate and timely follow-up
       measures are performed and are recorded for historical reference on incomplete,
       outstanding, or late disbursement requests.

   (4) Develop and implement policies and procedures that require the Department of
       Administration and Finance to perform a thorough review of the financial statements
       to ensure that costs are not omitted.

Management Response:

MCC management accepts the recommendations. The Division of Finance has already
implemented quality assurance and review procedures to help ensure that compact
disbursement requests/reports, which are to include compact expense information, are
received timely, are complete, and that relevant financial information from such requests are
properly included in quarterly financial statements and reports prepared by NBC. In the
event of missing or late reports/requests, Division of Finance personnel will contact the



                                       Page 11 of 48
pertinent accountable officials to obtain the reports/requests, and document such. Relevant
policies and procedures will be included in the FMPP manual.


MCC’s Chief Financial Officer Was Not an Integral Part of the Compact/Grant Processes
(material weakness)

Condition:

Based on interviews and observations, we noted that MCC’s Division of Finance was not
integrally involved in the compact/grant processes to ensure that the financial aspects are
addressed, recorded and reported in their proper sequence and appropriate timing. The Chief
Financial Officer or his designees should be integrally involved in all MCC operations that
result in a financial transaction. The CFO should be integrally involved in the:
        1. establishment of the compact amount to ensure that there is sufficient
             appropriations available,
        2. development of grant policies and procedures to ensure that they are in
             compliance with Federal government laws and regulations and to ensure that
             sufficient financial information is provided to MCC to accomplish its
             responsibilities,
        3. review of compacts in order to initiate accounting transactions in the system and
             budget transactions with OMB, and
        4. establishment of the reporting structure to ensure that financial information is
             provided timely and in the format necessary for required financial reporting.

Criteria:

According to the CFO Act of 1990, “An agency Chief Financial Officer shall oversee all
financial management activities relating to the programs and operations of the agency.”
Under the Act, an agency CFO’s responsibility will extend to every aspect of financial
management related to operating agency programs. Government wide organizational change
is needed to vest the CFOs with authority related to accounting, budget execution, and other
financial management operations. This will ensure that one person, who is part of top
management, has overall responsibility for establishing and implementing effective financial
management policies, internal controls, and financial management systems.

Cause:

During fiscal year 2005, MCC management developed the selected compacts based on
informal procedures. Therefore, the Chief Financial Officer’s involvement was based on an
informal basis, and was not included in the official procedures that were developed during
fiscal year 2006.

Effect:

This condition can result in the lack of (1) control over pertinent financial management
activities, (2) sufficient information to accurately report on compact expenses and advances,


                                       Page 12 of 48
and (3) control over disbursement to ensure compliance with Treasury cash management
requirements. Additionally, it can result in confusion over the financial reporting required
and the timeframe required.

Recommendation #06-05:

We recommend that Millennium Challenge Corporation’s management revise their policies
and procedures to invest the Office of the Chief Financial Officer with the level of
responsibility, role, and all levels of authority established by the Chief Financial Officer Act.

Management Response:

MCC management accepts the recommendation and will take necessary steps to establish and
implement required policies, procedures, and organizational protocol to ensure that the
Corporation’s CFO is appropriately involved with the financial management operations
entity-wide.


REPORTABLE CONDITION

MCC’s Travel Disbursement Controls and Procedures Do Not Permit the Effective and
Efficient Management of Travel (reportable condition)

Condition:

MCC follows the Federal Travel Regulations and has an overall policy related to travel.
However, prior to February 2006, MCC was using blanket travel authorizations (TA) to serve
as an approval for employee travel. Once MCC approved the blanket TA, it was submitted to
National Business Center (NBC) to post an obligation within Oracle. After February, MCC
modified the travel policy that instituted the individual TA’s that outlined the specific
purpose of the employee’s travel. NBC no longer posts travel obligations in advance in
Oracle but obligates and pays the travel vouchers, simultaneously.

Similar to FY 2005, MCC requires all employees to post their travel expenses online in E-
Travel. Although the travel voucher process is electronic, E-Travel does not interface with
Oracle Federal Financials. Therefore, an NBC accounting technician must manually enter
each voucher. During our travel testing, we noted twenty-six instances totaling $97,802 for
which employees’ receipts were not available. We also noted the following:

   1. Eleven of 115 (10%) travel vouchers totaling $869 exceeded per diem rates;
   2. Six of 115 (5%) vouchers equaling $557 consisted of expenses in excess of $75 and
      were not supported; and
   3. Four of 115 (3%) vouchers totaling $35,663 were not approved by the travel manager
      within E-Travel.




                                         Page 13 of 48
MCC enhanced its travel policy in August 2006. MCC management changed the
Corporation’s supporting documentation requirements to require travelers to scan into the E-
travel system and electronically attach to the pertinent travel vouchers receipts for claimed
expenses of $75 or more. Division of Finance personnel are responsible for reviewing
submitted vouchers to ascertain that required receipts are electronically attached to travelers’
vouchers. Travelers who do not scan and attach their required receipts to vouchers are
contacted by Division of Finance staff to obtain “missing” receipts.

Criteria:

U.S. General Services Administration (GSA) Federal Travel Regulations Chapter 301
“Temporary Duty (TDY) Travel Allowances” states that traveler is responsible for expenses
over the reimbursement limits established in this chapter. The traveler’s agency will not pay
for excess costs resulting from circuitous routes, delays, or luxury accommodations or
services unnecessary or unjustified in the performance of official business. Also, receipts
shall be required to support all lodging costs for which an allowance is claimed under the
lodgings-plus per diem system except that a statement instead of a receipt may be accepted
for the fee or service charge incurred for the use of Government quarters.

Federal Travel Regulations Chapter 301-7.2 states that it is the responsibility of the head of
each agency, or his/her designee, to authorize or approve only those per diem allowances that
are justified by the circumstances affecting the travel and are allowable under the specific
rules in this part.

Additionally, the “Standards for Internal Control in the Federal Government” states that
internal controls and all transactions and other significant events need to be clearly
documented and the documentation should be readily available for examination. The
documentation should appear in management directives, administrative policies, or operating
manuals. Also, information should be recorded and communicated to management and
others within the entity who need it and in a form and within a timeframe that enables them
to carry out their internal control and other responsibilities.

Cause:

Prior to the finalized procedures distributed in August 2006, management worked from
incomplete draft travel procedures. Additionally, the travel manager did not approve the
online vouchers in E-travel consistently. Employees are required to retain all receipts that
are $75 or greater and thus, are not required to submit their receipts to the agency. Therefore,
for employees on travel during the time of testing, their receipts were unavailable for audit.

Effect:

The lack of sufficient detail and accountability in the procedures can produce inconsistent
application of the travel policies and increase the risk of errors, improper recording,
unauthorized transactions, omissions, potential funds control violations due to the lack of




                                        Page 14 of 48
obligations and noncompliance with laws and regulations. This also diminished the
effectiveness and efficiency with which the financial transactions were being processed.

Recommendation #06-06:

We recommend that Millennium Challenge Corporation’s management develop and
implement controls to reject travel expense reimbursement requests that exceed the allowable
country per diem unless additional electronic authorization is provided.

Management Response:

MCC management accepts the recommendation. The Deputy Chief Financial Officer has
instructed the Division of Finance staff not to approve any claimed travel expenses that
exceed established limitations as defined by the Federal Travel Regulation (FTR).
Furthermore, the Division has instituted procedures to require that a traveler’s responsible
manger/supervisor be apprised of claimed expenses that are not in compliance with the FTR
and/or MCC requirements, and that the manager/supervisor explicitly approve such expenses,
but only if allowable per the FTR.


The status of prior years findings is provided in Appendix A. Management’s response in its
entirety is included in Appendix C.

As required by OMB Bulletin No. 06-03, with respect to internal controls related to
performance measures determined by management to be key and reported in the
Management’s Discussion and Analysis, we obtained an understanding of the design of
significant internal controls relating to the existence and completeness assertions. Our
procedures were not designed to provide assurance on internal control over performance
measures and, accordingly, we do not provide an opinion thereon.


COMPLIANCE WITH LAWS AND REGULATIONS

MCC’s management is responsible for complying with laws and regulations applicable to
MCC. As part of obtaining reasonable assurance that MCC’s balance sheet is free of
material misstatements, we performed tests of its compliance with certain provisions of laws
and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations
specified in OMB Bulletin No. 06-03, including the requirements referred to in the FFMIA.
We limited our tests of compliance to these provisions and we did not test compliance with
all laws, regulations, contracts, and agreements applicable to MCC. Providing an opinion on
compliance with laws, regulations, contracts, and grant agreements was not an objective of
our audit and, accordingly, we do not express such an opinion.

Under OMB Bulletin No. 06-03 and FFMIA, we are required to report whether MCC’s
financial management systems substantially comply with: (1) Federal financial management



                                       Page 15 of 48
systems requirements, (2) applicable Federal accounting standards, and (3) the United States
Government Standard General Ledger at the transaction level. To meet this requirement, we
relied on the results of a SAS 70 review of the Department of Interior’s Oracle Federal
Financial System performed by an Independent Audit Firm. The results of that review have
been presented to MCC in a separate report. Providing an opinion on compliance with those
provisions was not, however, an objective of our audit and, accordingly, we do not express
such an opinion.

The results of our tests disclosed that the Corporation did not fully comply with the FFMIA,
which is required to be reported under Government Auditing Standards or OMB Bulletin No.
06-03.

Under FFMIA, we are required to report whether the Corporation’s financial management
systems substantially comply with the Federal financial management systems requirements,
applicable Federal accounting standards, and the United States Government Standard
General Ledger at the transaction level. To meet this requirement, we performed tests of
compliance with FFMIA section 803(a) requirements.

The results of our tests disclosed three instances of noncompliance with laws and regulations.


MATERIAL NONCOMPLIANCE

MCC Did Not Fully Comply with FFMIA and GPRA

Condition:

Millennium Challenge Corporation has not fully complied with the following laws and
regulations:

   •   Government Performance and Results Act (GPRA)

   •   Federal Financial Management Improvement Act (FFMIA)

We noted that the agency performance plans provided to us did not fully comply with GPRA
requirements, for example: human, capital and other resources needed to achieve
performance goals were not quantified as required. Also, agency performance goals were not
written in a manner that could be quantified in several instances and milestones were not
included. Therefore, we could not directly link measurement of agency performance goals
with the overall strategic plan. In addition, baseline data to be used as performance indicator
measurement thresholds were not provided for some indicators.

The FFMIA requires an integrated financial management system. MCC does not have an
integrated financial management system. When MCC decided to outsource its accounting
operations, MCC selected NBC from the available Federal Centers of Excellence as the best
choice to meet its needs. In order to address the needs of MCC, multiple systems, i.e. E-


                                        Page 16 of 48
Travel, procurement, and Federal Personnel and Payroll System (FPPS), are used, but these
systems cannot exchange data electronically. The entry of the travel expenses and
disbursements must be done manually. The entry of obligations and commitments requires a
process of emails, scanning and manual entry into Oracle Federal Financial (OFF) System
application. The payroll expenses and disbursements must be uploaded into OFF from FPPS.

Additionally, we obtained and reviewed the Financial Management Controls and Assertion
letter and noted the following assertion, “During FY 2006, NBC’s sytems were not in
substantial compliance with FFMIA requirements. In its assurance statement as of June 30,
2006, NBC asserted that ‘were in substantial non-compliance with FFMIA requirements’.”
Subsequently, NBC instituted several corrective actions to address the issues raised and were
in substantial compliance by September 30, 2006, per their representation.

Criteria:

The GPRA under United States Code Title 5, Chapter 3, section 306(a)(3) states that strategic
plans shall contain, “a description of how the goals and objectives are to be achieved,
including a description of the operational processes, skills and technology, and the human,
capital, information, and other resources required to meet those goals and objectives.” In
addition, under section 306(a)(4), it also requires “a description of how the performance
goals included in the plan required by section 1115(a) of Title 31 shall be related to the
general goals and objectives in the strategic plan.”           Under section 4(b), “Annual
Performance Plans and Reports,” it amends section 1115 of Title 31 to, “express such goals
in an objective, quantifiable, and measurable form unless authorized to be in an alternative
form under subsection (b).” Also, the performance report should evaluate the performance
plan for the current fiscal year relative to the performance achieved toward the performance
goals in the fiscal year covered by the report.

The FFMIA requires MCC to implement and maintain a financial management system that
complies substantially with Federal requirements for an integrated financial management
system.

Cause:

MCC is still developing the GPRA process and has not developed system-wide strategic plan
implementation standards, formats or procedures at the departmental level. Also,
performance measures baseline data is incomplete and as such, in some instances there are no
indicators available to measure progress made.

The MCC does not have its own financial system. The Corporation has contracted with NBC
to provide accounting and IT services including usage of its OFF application. The MCC is
required by government regulations to use Federal Centers of Excellence, of which NBC is
one. According to MCC officials, the Corporation has been directed to use the systems
available through NBC. MCC believes that in fiscal year 2006, it used the only options
available. NBC is working with MCC to provide enhancement to the system to




                                       Page 17 of 48
accommodate MCC’s needs within the context of the OMB requirements for Centers of
Excellence.

Effect:

Without a performance plan that meets key GPRA requirements MCC management may not
have meaningful performance data linked to the strategic objectives and goals of the MCC.
The reader of the financial statements is not provided with a clear picture of the
accountability and achievements of the Corporation.

Furthermore, because MCC does not have an integrated financial management system, the
users may not receive complete, accurate, and timely financial information needed for
decision-making purposes because of the inefficiencies caused by the manual processes.

Recommendation #06-07:

We recommend that MCC management:

1. Develop performance goal templates and follow-up training to ensure that Government
   Performance and Results Act (GPRA) requirements are adequately addressed and
   consistent. We also recommend that baseline data be finalized or performance indicators
   reviewed and amended such that they can be measured against obtainable data.

2   Assess the automated options available to handle MCC operations and develop short
    range and long range plans for the implementation of the most appropriate information
    technology structure to address electronic integration of at least the payroll, procurement
    and travel functions and systems to increase the efficiencies and effectiveness of the
    processing of financial transactions; and decrease the risk of errors.

Management Decision:

MCC accepts the recommendations. Relative to GPRA, the Department of Administration
and Finance management is working with various corporate organizations to help ensure that
strategic and operational performance goals, including financial management performance,
and inter-related and resulting performance data is reliable and consistent.

In regards to system integration, the Department of Administration and Finance is currently
considering various potential options and alternatives for increasing the electronic
integration, responsiveness, and efficiency of the financial management systems used by the
Corporation. The Division of Finance is working with NBC to identify potential
opportunities for various financial management systems functions, including enhanced
automated financial reporting and cost accumulation. Since MCC outsources its financial
management and administrative functions, the Corporation is highly dependent upon its
financial and administrative services provider (NBC) to help ensure operation of effective
financial systems.




                                        Page 18 of 48
MCC Does Not Fully Comply With The Federal Information Security Management Act
(FISMA)
An OIG audit identified significant non-compliance with FISMA requirements. Also, MCC
engaged an outside expert to perform an independent security audit. MCC acknowledged that
it had not met the majority of the FISMA requirements and proposed a timetable for
compliance.

We are reporting this deficiency as required by the guidance issued by the Office of
Management and Budget. However, because this deficiency was addressed in a prior OIG
audit report, we are not making any recommendation in this report.


MCC Policies for Disbursing Advances to Grantees Does Not Accommodate Effective
Cash Management

The internal control finding “MCC Policies for Disbursing Advances to Grantees Does Not
Accommodate Effective Cash Management” is also a noncompliance with laws and
regulations.

The complete finding and recommendation for this finding is presented in the internal control
section of this report. We are not making any recommendations for this finding because we
reported and made recommendations for corrective actions in the internal control section.


DISTRIBUTION

This audit was performed pursuant to the Government Corporation Control Act, and is
intended solely for the information and use of the United States Congress, the President, the
Director of the Office of Management and Budget, Comptroller General of the United States,
the Corporation and its Inspector General, and is not intended to be, and should not be, used
by anyone other than these specific parties.




October 25, 2006
Washington, D.C.




                                       Page 19 of 48
                                                                           Appendix A



STATUS OF PRIOR YEAR FINDINGS


Review of Oracle Federal Financial System

The Millennium Challenge Corporation (Corporation) does not have its own financial
system. The Corporation contracted with the Department of Interior, National Business
Center (NBC) to provide accounting and IT services including usage of its Oracle Federal
Financial (OFF) System application. The NBC has not conducted an internal control review,
such as a Statement of Auditing Standards (SAS) 70 review of the Oracle Federal Financials
System nor has MCC directed NBC as its third-party servicer to have a review conducted in
accordance with the federal system requirements.

Recommendation
We recommend that MCC direct the National Business Center to conduct an internal control
review, such as a SAS 70 review to assess the control environment of the Oracle Federal
Financial System.

Status
The NBC performed a SAS 70 review of the Oracle Federal Financial System for the period
March 1, 2005 to July 31, 2005. The independent auditors reported that the relevant aspects
of the NBC’s controls that had been placed in operation are suitably designed to provide
reasonable assurance that the specified control objectives would be achieved, except for the
following two items:
    • OFF requires transactions exceeding a dollar threshold to be approved by certifying
       officers. The electronic workflow in OFF currently does not require the approval by
       certifying officers of all such transactions.
    • NBC is responsible for monitoring budgetary accounts for MCC. However, OFF
       limit edits are not designed to prevent obligations from exceeding the allotment.

NBC provided a self-certification asserting no change in the system controls from August 1
to September 30, 2005. No system review was performed for the period October 1, 2004 to
February28, 2005 to assess operational efficiency, effectiveness and transparency

In fiscal year 2006, NBC performed a SAS 70 review for the period October 1, 2005 to July
31, 2006. The independent auditors reported that the relevant aspects of the NBC’s controls
that had been placed in operation are suitably designed to provide reasonable assurance that
the specified control objectives would be achieved, except for the following item:
    • OFF requires transactions exceeding a dollar threshold to be approved by certifying
        officers. The electronic workflow in OFF currently does not require the approval by
        certifying officers of all such transactions.




                                     Page 20 of 48
                                                                              Appendix A


MCC’s Policies and Procedures Were Not Always Complete and Consistent

During the fiscal year, the Millennium Challenge Corporation (MCC) has used various
processes to address the financial aspects of their operations. These processes have evolved
during the year as the organization has grown in personnel and operations. In this growth,
however, the development of written policies and procedures to guide MCC’s streamlined
operational structure has not been a high priority for MCC in several areas. However,
written policies and procedures must be in place to ensure operational efficiencies, risk
reduction, and consistent application.

Recommendation 05-1:

We recommend that MCC’s Office of Finance and Administration revise and reissue written
policies and procedures that provide additional specificity in the areas noted above including
the Fund Balance with Treasury, financial reporting, payroll processing, accrual generation
and reporting, interagency reporting, fixed assets, travel, monitoring and internal grant
processes. These policies and procedures should provide the following information at a
minimum:

   •     Position accountable for each step in the process,
   •     Position responsible for approving/reviewing the information,
   •     The acceptable internal and external timelines for each step in the process, and
   •     The specific documentation required determining the authorization, timeliness and
         review of transaction.

Status

MCC had not issued final policies and procedures in several areas. Therefore, the finding is
repeated but revised as finding # 06-1.


MCC’s Travel Disbursement Controls and Procedures Do Not Permit the Effective and
Efficient Management of Travel

According to MCC’s management, MCC has adopted the Federal Travel Regulations as its
overall policy related to travel. MCC's internal travel policies and procedures do not permit
the effective and efficient management of travel. These procedures do not ensure that travel
is adequately planned and managed. Because a blanket travel authorization is used, there is
no record that individual travel has taken place and that accounting has occurred for each
instance. Additionally, the policy does not require that appropriate coordination include the
Office of Finance. For example, the Office of Finance should have knowledge of planned
trips, the timing, exceptions to the standard travel policy, and the estimated costs in order to
ensure that sufficient obligations have been recorded to cover expenses incurred by MCC
travelers. Currently, an initial estimate is prepared annually to fund the blanket travel
authorization and the estimate is adjusted quarterly by the controller based upon expense
patterns. There are, however, no automated processes in place to ensure that the estimate is


                                      Page 21 of 48
                                                                              Appendix A

sufficient to cover the travel expenses incurred. This problem is compounded by the
untimely filing of travel vouchers thereby increasing the difficulty and reducing the accuracy
of the estimation process performed by the controller.

Recommendation #05-2:

We recommend that MCC management:

   (1) Develop and disseminate explicit policies to ensure that employees are aware of and
       follow the Federal Travel Regulations. Any exception should be documented and
       approved by a manager/supervisor in writing.
   (2) Institute policies and procedures to ensure proper authorizations and approvals are
       obtained and coordination with the Office of Finance has occurred for each planned
       trip prior to travel to ensure that the information is properly captured in the financial
       management system.
   (3) Develop and institute controls to reject those expenses claimed that exceed the
       allowable country per diem unless explicit written authorization is provided prior to
       travel.

Status:
MCC issued a revised policies and procedures in fiscal year 2006. However, we found
additional exceptions in fiscal year 2006 related to travel expenses that exceed per diem, and
lacked documentation. Also, we noted that no obligations are recorded prior to processing
the travel voucher for reimbursement. The finding has been revised. Recommendations 2
and 3 were retained and a new recommendation was added. See recommendation #06-06


MCC Policies for Disbursing Advances to Grantees Does Not Accommodate Effective
Cash Management Nor the Appropriate Recording of Custodial Interest Receivable and
Payable

MCC entered into a compact with Madagascar in April 2005. The Compact became
effective in July 2005, and an immediate advance was provided to MCA Madagascar
amounting to $2,500,924. Based upon information obtained at year-end, MCA Madagascar
has expended $650,000 of the initial advance.

Through various OMB Circulars, OMB has attempted to address the need for advances to
cover immediate cash needs or timely disbursements of an entity for direct program costs for
carrying out the purpose of the approved program or project. Thus, funds paid to a grantee
are not to be held but are to be promptly applied to the grant purpose. Although the
timeframe for immediate cash needs has not been clearly defined by OMB, the general rules
employed by various Federal agencies are 30 days for non-governmental entities. Based
upon this definition, MCC has provided Federal funds in excess of immediate cash needs.




                                      Page 22 of 48
                                                                              Appendix A


Recommendation #05-3:

We recommend that management:

   (1) Develop policies and procedures to ensure that the payment schedules and other
       agreements entered into with grantees are reflective of the Treasury requirements
       concerning advances and immediate cash needs.
   (2) Establish policies and procedures to ensure that any custodial liabilities, e.g. interest
       owed to the U.S. government resulting from the grantee advances, are properly
       recorded.

Status:

MCC’s policies and procedures have not changed in this area. In fiscal year 2006 more
funds have been provided to various MCAs and the timelines between requesting the funds
and their use has not improved but worsened. The finding was revised with additional data
and recommendations. See recommendation #06-02.


MCC’s Human Resources Responsible for Managing Its Financial Operations are
Inadequate

During our internal control and substantive testing, we noted that the MCC relies solely on
the Controller, with contract assistance, to perform the substantial duties of the Office of
Financial Management (OFM). The current range of Controller responsibilities include, but
are not limited to, the approval of miscellaneous obligations; monthly, quarterly and yearly
financial information review; development of financial policies and procedures; financial
statement review; audit coordination; coordination with other agencies including OMB,
USAID/OIG, and NBC; and approval of funds availability.

Recommendation #05-4:

We recommend that MCC evaluate and document the need for additional employees in OFM
to ensure that proper internal controls are in place to meet the agency’s objective and thus,
providing the Controller with adequate delegation of authority. Additionally, the roles and
responsibilities of the current Controller position and the new positions in OFM should be
clearly delineated and communicated.

Status:

MCC took significant steps to improve their human resources in the Office of Finance. They
hired an additional five employees including a Chief Financial Officer, Deputy Chief
Financial Officers and several accountants. The delineation of their roles and responsibilities
will be outlined clearly in the newly revised policies and procedures.




                                      Page 23 of 48
                                                                               Appendix A


MCC Did Not Fully Comply with FFMIA and GPRA

Millennium Challenge Corporation has not complied with the following laws and
regulations:

      •   Government Performance and Results Act (GPRA)

      •   Federal Financial Management Improvement Act (FFMIA)

MCC has not developed performance goals and objectives that comply with the requirements
of the GPRA. Although MCC has several guiding objectives, they do not meet the
requirements of GPRA. The information in Management’s Discussion and Analysis are not
sufficient to meet GPRA requirements and the goals presented are on a calendar year basis
rather than a fiscal year.

The FFMIA requires an integrated financial management system. MCC does not have an
integrated financial management system. When MCC decided to outsource its accounting
operations, MCC selected NBC from the available Federal Centers of Excellence as the best
choice to meet its needs. In order to address the needs of MCC, multiple systems, i.e. E-
Travel, procurement, and FPPS, are used but these systems cannot exchange data
electronically. The entry of the travel expenses and disbursements must be done manually.
The entry of obligations and commitments requires a process of emails, scanning and manual
entry into OFF. The payroll expenses and disbursements must be uploaded into OFF from
FPPS.

Recommendation #05-5:

We recommend that MCC management:

(1)       Implement their intended corrective actions for preparation of a GPRA based
          performance goals and objectives by March 2006, as specified in its FMFIA
          assessment, specifically:
          • Complete the development of a strategic plan for the next six fiscal years that
              meets OMB requirements.
          • Involve MCC staff in the determination of corporate performance goals.
          • Articulate operational performance goals for FY 2006, that align with the defined
              strategic goals and submit to the Board and OMB.

(2)       Assess the automated options available to handle MCC operations and develop short
          range and long range plans for the implementation of the most appropriate
          information technology structure to address electronic integration of at least the
          payroll, procurement and travel functions and systems to increase the efficiencies and
          effectiveness of the processing of financial transactions; and decrease the risk of
          errors.




                                        Page 24 of 48
                                                                         Appendix A


Status:

MCC has made improvements in these areas. However, there are remaining issues and thus
the finding has been repeated with a revision to the finding for GPRA. See recommendation
# 06-07.


MCC Does Not Fully Comply with The Federal Information Security Management Act
(FISMA)
In a report issued June 2005, an OIG audit identified significant non-compliance with
FISMA requirements. Subsequently, MCC completed its FISMA report to OMB as of
September 30, 2005, where it acknowledged that it had not met the majority of the FISMA
requirements and proposed a timetable for compliance.

We are reporting this deficiency, as required by the guidance issued by the Office of
Management and Budget. However, because this deficiency was addressed in a prior OIG
audit report, we are not making any recommendation in this report.

The OIG continues the report significant noncompliances with FISMA requirements in fiscal
year 2006.




                                    Page 25 of 48
                                                                      Appendix B



Management         We received and evaluated MCC’s management comments to the
Comments and Our   recommendations made in this report. We considered their
Evaluation         comments to be generally responsive except for specific exceptions
                   detailed below. Management comments have been included in their
                   entirety in Appendix C.

                   In its response MCC’s management stated that it recognizes the
                   importance of accountability, effective stewardship, and public
                   disclosure related to the resources entrusted to it, and that their
                   goal is to achieve and maintain excellence in financial
                   management, financial reporting and internal control systems.
                   Further, MCC’s management commented that it will implement
                   the recommendations as soon as possible to strengthen their
                   systems of internal controls and lend further credibility to their
                   financial statements and overall financial operations. MCC’s
                   management went on to address each recommendation. MCC’s
                   management also recognized and thanked both the OIG and
                   Williams, Adley & Company, LLP for working closely with them
                   during the audit process and providing counseling and support
                   throughout the year.

                   Based on MCC’s comments, we consider that a management
                   decision has been reached on recommendations 1, 4, and 6 provided
                   in this report but not on recommendations 2, 3, 5, and 7. These
                   recommendations do not provide defined timelines for the corrective
                   action implementation.        Also, the corrective actions for
                   recommendation 2.4 and 7.1 require additional details to ensure that
                   the recommendations are appropriately addressed.                 On
                   recommendation 2.1, management agreed to “the spirit” of the
                   recommendation but has not agreed to the usage of the US Treasury
                   requirements. MCC should report to the OIG when management
                   decision has been reached on the four recommendations and when
                   final action has been taken on the recommendations. The following
                   is a brief summary of MCC’s management comments on the seven
                   recommendations included in this report and our evaluation on those
                   comments.

                   Recommendation No. 1

                   MCC accepts the recommendation and is currently implementing
                   relevant corrective action. Specifically, the Division of Finance
                   (within the Department of Administration and Finance) initiated an
                   effort during the summer 2006 to develop and implement a
                   comprehensive corporate Financial Management Policies and
                   Procedures (FMPP) manual. The Division is utilizing contractor



                              Page 26 of 48
                                                 Appendix B

support in this endeavor. The initial version of the FMPP manual
is slated to be completed and formally institutionalized by
December 31, 2006.

Auditor Evaluation: We conclude that management has adequately
addressed this issue.

Recommendation No. 2

MCC Management accepts recommendations 2.2, 2.3, and 2.4.
Regarding recommendation 2.1, MCC intends to follow sound
cash management practices, will disburse funds consistent with the
GAO policy based upon what is needed to meet grant purposes in
any given quarter, though the funds will be released in tranches
following a monthly schedule.

MCC has begun implementing needed corrective actions. The
MCC FMPP manual (currently being developed – see above
management response to recommendation 1) will contain
definitive documentation and disbursement requirements for
transferring funds to compact countries. Furthermore, the Division
of Finance, in coordination with the National Business Center
(MCC’s financial services provider) has already implemented
procedures to disburse funds to compact countries monthly in
accordance with identified funding needs per pertinent quarterly
disbursement requests.

Auditor Evaluation: We conclude that management has not
adequately addressed this issue because the response does not
address recommendation 2.4; and does not discuss the
implementation of recommendation 2.2. Also, the management
response does not specify an implementation date for any of the
subparts of recommendation 2.

Recommendation No. 3

MCC management accepts the recommendation. The Department
of Administration and Finance has begun planning and defining
requirements for implementing a viable property management
system and associated controls and processes, including periodic
physical counts to verify the Corporation’s property holdings and
ensure the propriety of perpetual property records and related
financial balances.




           Page 27 of 48
                                                   Appendix B

Auditor Evaluation: We conclude that management has not
adequately addressed this issue because no defined timetable has
been stated for the corrective action.

Recommendation No. 4

MCC management accepts the recommendations. The Division of
Finance has already implemented quality assurance and review
procedures to help ensure that compact disbursement
requests/reports, which are to include compact expense
information, are received timely, are complete, and that relevant
financial information from such requests are properly included in
quarterly financial statements and reports prepared by NBC. In the
event of missing or late reports/requests, Division of Finance
personnel will contact the pertinent accountable officials to obtain
the reports/requests, and document such. Relevant policies and
procedures will be included in the FMPP manual.

Auditor Evaluation: We conclude that management has adequately
addressed this issue.

Recommendation No. 5

MCC management accepts the recommendation and will take
necessary steps to establish and implement required policies,
procedures, and organizational protocol to ensure that the
Corporation’s CFO is appropriately involved with the financial
management operations entity-wide.

Auditor Evaluation: We conclude that management has not
adequately addressed this issue because no defined timetable has
been stated for the corrective action.

Recommendation No. 6

MCC management accepts the recommendation. The Deputy
Chief Financial Officer has instructed the Division of Finance staff
not to approve any claimed travel expenses that exceed established
limitations as defined by the Federal Travel Regulation (FTR).
Furthermore, the Division has instituted procedures to require that
a traveler’s responsible manger/supervisor be apprised of claimed
expenses that are not in compliance with the FTR and/or MCC
requirements, and that the manager/supervisor explicitly approve
such expenses, but only if allowable per the FTR.




           Page 28 of 48
                                                    Appendix B

Auditor Evaluation: We conclude that management has adequately
addressed this issue.

Recommendation No. 7

MCC accepts the recommendations. Relative to GPRA, the
Department of Administration and Finance management is
working with various corporate organizations to help ensure that
strategic and operational performance goals, including financial
management performance, and inter-related and resulting
performance data is reliable and consistent.

In regards to system integration, the Department of Administration
and Finance is currently considering various potential options and
alternatives for increasing the electronic integration,
responsiveness, and efficiency of the financial management
systems used by the Corporation. The Division of Finance is
working with NBC to identify potential opportunities for various
financial management systems functions, including enhanced
automated financial reporting and cost accumulation. Since MCC
outsources its financial management and administrative functions,
the Corporation is highly dependent upon its financial and
administrative services provider (NBC) to help ensure operation of
effective financial systems.

Auditor Evaluation: We conclude that management has not
adequately addressed this issue because no defined timetable has
been stated for the corrective action. Also, the response to
recommendation 7.1 does not provide enough detail information to
conclude that the finalization of baseline data, review of performance
indicators, the development of templates, or performance of follow-
up training is part of the corrective action plan.




            Page 29 of 48
                                                                              Appendix C




November 6, 2006


TO:            John Phee
               Assistant Inspector General

FROM:          Michael Ryan /s/
               Vice President, Administration & Finance

SUBJECT:       Management Response to Draft Independent Auditor’s
               Report on MCC’s Financial Statements for Fiscal Years
               Ended September 30, 2006 and 2005, Respectively



We have received the subject draft report and are pleased to note that the independent
auditors, Williams, Adley & Company, LLP, are issuing an unqualified opinion on our
principal financial statements, namely the Statements of:
    • Financial Position;
    • Operations and Changes in Net Position;
    • Cash flows;
    • Functional Expenses; and
    • Budgetary Resources.

The auditor’s unqualified opinion is being issued despite material internal control
weaknesses and noncompliance with selected laws and regulations that have been identified.

The Millennium Challenge Corporation’s (MCC) management recognizes the importance of
accountability, effective stewardship and public disclosure related to the resources entrusted
to it. Our goal is to achieve and maintain excellence in our financial management, financial
reporting and internal control systems. Accordingly, we will implement the
recommendations as soon as possible to strengthen our systems of internal control and lend
further credibility to our financial statements and overall financial operations.

We wish to recognize and thank you, your team and Williams, Adley & Company for
working closely with us during the audit process. We look forward to working with you and
your staff on the fiscal year (FY) 2007 financial audit. Any questions may be addressed to
Mr. Gerald Thomas, Deputy Chief Financial Officer, or to me.

Following are our management decisions and responses to Williams Adley’s audit
recommendations.


                                      Page 30 of 48
Material Weakness 1: MCC’s policies and procedures were not always complete and
consistent.

Recommendation 1: Williams, Adley & Company recommends that MCC’s Department of
Administration and Finance complete the Financial Management Policies and Procedures
(FMPP) manual and implement the written policies and procedures for all areas that result in
a financial event.

Management Decision: MCC management accepts the recommendation and is currently
implementing relevant corrective actions. Specifically, the Division of Finance (within the
Department of Administration and Finance) initiated an effort during the summer, 2006 to
develop and implement a comprehensive corporate Financial Management Policies and
Procedures (FMPP) manual. The Division is utilizing contractor support in this endeavor.
The initial version of the FMPP manual is slated to be completed and formally
institutionalized by December 31, 2006.

                                          *****

Material Weakness 2: MCC policies for disbursing advances to grantees do not
accommodate effective cash management.

Recommendations: Williams, Adley & Company recommends that MCC management:
   2.1: Develop and implement policies and procedures to ensure that payment schedules
   and other agreements entered into with grantees are reflective of U.S. Treasury
   requirements concerning advances and immediate cash needs.
   2.2: Develop and implement policies and procedures to ensure that all disbursement
   requests from the accountable entity of the recipient countries follow the official format
   that documents the cash requirements for each month of the quarterly period.
   2.3: Make and document all payments to the recipient countries on a monthly basis
   instead of a quarterly basis.
   2.4: Establish and implement policies and procedures to ensure that any custodial
   liabilities, e.g. interest owed to the U.S. Government resulting from the grantee advances,
   are properly recorded.

Management Decision: MCC management accepts recommendations 2.2, 2.3 and 2.4.
Regarding recommendation 2.1, MCC intends to follow sound cash management practices,
will disburse funds consistent with GAO policy based on an evaluation of what is needed to
meet grant purposes in any given quarter, though the funds will be released in tranches
following a monthly schedule.

MCC has begun implementing needed corrective actions. The MCC FMPP manual
(currently being developed – see above management response to recommendation 1) will
contain definitive documentation and disbursement requirements for transferring funds to
compact countries. Furthermore, the Division of Finance, in coordination with the National
Business Center (MCC’s financial services provider) has already implemented procedures to


                                      Page 31 of 48
disburse funds to compact countries monthly in accordance with identified funding needs per
pertinent quarterly disbursement requests.

                                          *****

Material Weakness 3: MCC does not have a property management system.

Recommendation 3: Williams, Adley & Company recommends that MCC develop and
maintain appropriate fixed asset records to ensure accurate reporting and physical control.

Management Decision: MCC management accepts the recommendation. The Department
of Administration and Finance has begun planning and defining requirements for
implementing a viable property management system and associated controls and processes,
including periodic physical counts to verify the Corporation’s property holdings and ensure
the propriety of perpetual property records and related financial balances.


                                          *****

Material Weakness 4: MCC did not properly record compact expenses during the fiscal
year.

Recommendations: Williams, Adley & Company recommends that MCC management:
   4.1: Require that the final quarterly disbursement requests received from the accountable
   entity of the recipient countries be made available to the Department of Administration
   and Finance and the Fiscal Accountability Office.
   4.2: Develop and implement policies and procedures that require compact expenses are
   properly and accurately recorded and reported on a quarterly basis.
   4.3: Implement written procedures requiring that appropriate and timely follow-up
   actions are performed and documented on late and/or outstanding fund disbursements
   and/or advance requests.
   4.4: Develop and implement policies and procedures that require the Department of
   Administration and Finance to perform a thorough review of the financial statements to
   ensure that costs are not omitted.

Management Decision: MCC management accepts the recommendations. The Division of
Finance has already implemented quality assurance and review procedures to help ensure that
compact disbursement requests/reports, which are to include compact expense information,
are received timely, are complete, and that relevant financial information from such requests
are properly included in quarterly financial statements and reports prepared by NBC. In the
event of missing or late reports/requests, Division of Finance personnel will contact the
pertinent accountable officials to obtain the reports/requests, and document such. Relevant
policies and procedures will be included in the FMPP manual.

                                          *****



                                      Page 32 of 48
Material Weakness 5: MCC’s Chief Financial Officer was not an integral part of the
compact/grant processes.

Recommendation 5: Williams, Adley & Company recommends that MCC management
revise its policies and procedures to invest the Office of the Chief Financial Officer (CFO)
with the level of responsibility, including role and all levels of authority established by the
Chief Financial Officers Act.

Management Decision: MCC management accepts the recommendation and will take the
necessary steps to establish and implement required policies, procedures and organizational
protocol to ensure that the Corporation’s CFO is appropriately involved with financial
management operations entity-wide.

                                            **** *

Reportable Condition 1: MCC’s travel disbursement controls and procedures do not permit
the effective and efficient management of travel.

Recommendation 6: Williams, Adley & Company recommends that MCC management
develop and implement controls to reject travel expense reimbursement requests that exceed
the allowable country per diem limits unless additional electronic authorization is provided.

Management Decision: MCC management accepts the recommendation. The Deputy Chief
Financial Officer has instructed the Division of Finance staff not to approve any claimed
travel expenses that exceed established limitations as defined by the Federal Travel
Regulation (FTR). Furthermore, the Division has instituted procedures to require that a
traveler’s responsible manager/supervisor be apprised of claimed expenses that are not in
compliance with FTR and/or MCC requirements, and that the manager/supervisor explicitly
approve such expenses, but only if allowable per the FTR.

                                            *****

Material Noncompliance 1: MCC did not fully comply with the Federal Financial
Management Improvement Act (FFMIA) and the Government Performance and Results Act
(GPRA).

Recommendations: Williams, Adley & Company recommends that MCC management:
   7.1: Develop performance goal templates and follow-up training to ensure that
   Government Performance and Results Act (GPRA) requirements are adequately
   addressed and consistent. Williams, Adley & Company and the OIG also recommend
   that baseline data be finalized or performance indicators reviewed and amended such that
   they can be measured against obtainable data.
   7.2: Assess the automated options available to handle MCC operations and develop
   short-range and long-range plans for implementation of the most appropriate information
   technology structure to address electronic integration of at least the payroll, procurement



                                       Page 33 of 48
   and travel functions and systems to increase the efficiencies and effectiveness of the
   processing of financial transactions; and decrease the risk of errors.

Management Decision: MCC accepts the recommendations. Relative to GPRA,
Department of Administration and Finance management is working with the various
corporate organizations to help ensure that strategic and operational performance goals,
including financial management performance, and inter-related and resulting performance
data is reliable and consistent.

In regard to systems electronic integration, Department of Administration and Finance
management is currently considering various potential options and alternatives for increasing
the electronic integration, responsiveness and efficiency of the financial management
systems used by the Corporation. The Division of Finance is working with NBC to identify
potential automation opportunities for various financial management systems functions,
including enhanced automated financial reporting and cost accumulation. Since MCC
outsources its financial management and administrative functions, the Corporation is highly
dependent upon its financial and administrative services provider (NBC) to help ensure
operation of effective financial systems.

                                          *****

Material Noncompliance 2: MCC does not comply with the Federal Information Security
Management Act (FISMA). Williams, Adley & Company makes no recommendation(s)
relative to this material noncompliance since the deficiency was identified by the Office of
Inspector General in a prior audit and MCC management has:
     • acknowledged that it has not fully met FISMA requirements;
     • hired an outside expert to perform an independent security audit; and
     • proposed a timetable for compliance.




                                      Page 34 of 48
Millennium Challenge Corporation
Statements of Financial Position
As of September 30, 2006 With Summary Totals for 2005



                                                                                                                  Pre-Compact                    Evaluation and
                                                                                 2006 Total          Compacts       Funding         Threshold       Support     Administrative      Audit         2005 Total
 Assets
 Current Assets
   Fund Balance with Treasury (Note 2)                                       $      3,931,404,752 $ 3,610,671,774 $   55,951,660 $ 193,230,000 $ 32,200,504 $        37,567,478 $   1,783,336 $      2,358,547,000
   Receivables/Advances/Prepayments (Note 3)                                           18,893,478      16,587,951        511,426             -    1,731,899              62,202             -            4,338,698
  Fixed Assets
   Leasehold Improvements and Capital Equipment (Note 4)                                4,632,785               -              -             -            -           4,632,785             -            4,244,059
 Total Assets                                                                $      3,954,931,015 $ 3,627,259,725 $   56,463,086 $ 193,230,000 $ 33,932,403 $        42,262,465 $   1,783,336 $      2,367,129,757



 Liabilities
   Accounts Payable                                                                    2,552,277                -       774,246                 -      731,258        1,046,773             -            1,319,467
   Other Liabilities (Note 5)                                                          2,516,786                -             -                 -     (461,774)       2,978,560             -            2,522,803
   Accrued Funded Annual Leave                                                         2,698,070                -             -                 -            -        2,698,070             -            1,386,644
     Total Liabilities                                                       $         7,767,133 $              - $     774,246 $               - $    269,484 $      6,723,403 $           - $          5,228,914


 Net Position
   Unexpended Appropriations
      Obligated                                                                     1,283,003,458 1,187,867,694       43,098,943             0   23,298,780          26,954,705     1,783,336          349,153,392
      Commitments                                                                     856,804,162     842,399,600      5,052,595             0    8,495,391             856,576             0          606,634,745
      Allotments - Realized Resources                                               1,802,661,275 1,596,992,431        7,537,302   193,230,000    1,868,748           3,032,794             -        1,401,835,873
   Cumulative Results of Operations                                                     4,694,987               -              -             -            -           4,694,987             -            4,276,833
     Total Net Position (Note 6)                                             $      3,947,163,882 $ 3,627,259,725 $   55,688,840 $ 193,230,000 $ 33,662,919 $        35,539,062 $   1,783,336 $      2,361,900,843

 Total Liabilities and Net Position                                          $      3,954,931,015 $ 3,627,259,725 $   56,463,086 $ 193,230,000 $ 33,932,403 $        42,262,465 $   1,783,336 $      2,367,129,757




     The notes are an integral part of these financial statements




                                                                    Page 35 of 48
Millennium Challenge Corporation
Statements of Operations and Changes in Net Position
For the Year Ended September 30, 2006 With Summary Totals for 2005



                                                                                                                      Pre-Compact                         Evaluation and
                                                                               2006 Total       Compacts                Funding          Threshold           Support       Administrative     Audit               2005 Total
 Financing Sources
   Appropriations Used                                                     $     92,455,115 $     16,747,194 $            5,895,167 $                 - $     15,137,340 $     54,055,700 $     619,714 $           39,312,758

 Expenses                                                                        92,036,960       16,747,194              5,895,167                   -       15,137,340       53,637,545       619,714             35,035,926

 Excess of Financing Sources over Expenses                                 $        418,155 $             -       $              (0) $            -       $            0 $        418,155 $           -       $       4,276,832

 Net Position
   Excess of Financing Sources over Expenses                                        418,155                   -                  (0)                  -                0          418,155                 -           4,276,832
   Increase in Unexpended Appropriations
          Appropriated                                                                     -                                                                                                                                  -
              Obligated                                                          933,850,067      863,789,695            36,954,637                 -         14,498,520       17,054,929      1,552,286            346,388,202
              Commitments                                                        856,804,162      842,399,600             5,052,595                 0          8,495,391          856,576              0            626,634,744
              Allotments - Realized Resources                                   (168,109,344)    (358,233,833)           (8,007,053)      193,230,000          1,868,748        3,032,794              -            407,664,296
          Transfers In/(Out)                                                     (20,000,000)               -                     -       (20,000,000)                 -                -              -                      -
          Permanent Recission                                                    (17,700,000)     (17,700,000)                    -                 -                  -                -              -            (12,000,000)
       Total Increase in Unexpended Appropriations                             1,585,263,040    1,330,255,462            34,000,179       173,230,000         24,862,659       21,362,454      1,552,286          1,372,964,074

   Beginning Net Position                                                      2,361,900,842    2,297,004,263            21,688,661        20,000,000          8,800,260       14,176,608       231,050            988,936,768

   Ending Net Position                                                     $ 3,947,163,882 $ 3,627,259,725 $             55,688,840 $ 193,230,000 $           33,662,919 $     35,539,062 $    1,783,336 $ 2,361,900,842




        The footnotes are an integral part of these financial statements




                                                                Page 36 of 48
Millennium Challenge Corporation
Statements of Functional Expenses
For the Year Ended September 30, 2006 With Summary Totals for 2005



                                                                                                           Pre-Compact                     Evaluation and
                                                                                 2006 Total   Compacts       Funding         Threshold        Support Administrative      Audit      2005 Total


      Salary and Benefits                                                         $27,587,426 $          - $           - $               - $           - $ 27,587,426 $           - $ 13,343,440
      Travel                                                                       6,362,880             -             -                 -       317,509    6,045,371             -    3,980,087
      Rent/Lease                                                                   4,404,013             -             -                 -             -    4,404,013             -      718,546
      Utilities                                                                      766,206             -             -                 -             -      766,206             -      207,704
      Information Technology Services                                              2,562,575             -             -                 -             -    2,562,575             -    2,065,657
      Accounting Services                                                          4,244,677             -             -                 -             -    3,624,963       619,714    3,186,484
      Interagency Agreements                                                       4,636,977             -             -                 -     4,636,977            -             -      564,654
      Other Services                                                              13,563,769             -             -                 -     9,755,703    3,808,066             -    6,082,697
      Supplies and Equipment                                                       2,211,918             -             -                 -             -    2,211,918             -    2,671,882
      Grants                                                                      22,642,361    16,747,194     5,895,167                 -             -            -             -    1,024,133
      Miscellaneous                                                                3,054,158             -             -                 -       427,151    2,627,007             -    1,190,642

   Total Expenses                                                               $ 92,036,960 $ 16,747,194 $    5,895,167 $               - $ 15,137,340 $ 53,637,545 $      619,714 $ 35,035,926




       The footnotes are an integral part of these financial statements




                                                                Page 37 of 48
Millennium Challenge Corporation
Statements of Cash Flows
For the Year Ended September 30, 2006 With Summary Totals for 2005




                                                                                                                                   Pre-Compact                          Evaluation and
                                                                                            2006 Total         Compacts              Funding           Threshold           Support     Administrative        Audit             2005 Total
 Cash Flows from Operating Activities
   Excess of Financing Sources over Expenses                                            $        418,155 $                   - $                 - $                - $                - $      418,155 $                - $      4,276,832
   Adjustments Affecting Cash Flow:
   Depreciation Expense                                                                          483,000                                                                                        483,000                    $                -
   Changes in Assets and Liabilities:
    Appropriated Capital Used                                                                 (92,455,115)       (16,747,194)         (5,895,167)               -          (15,137,340)      (54,055,700)     (619,714)          (39,312,758)
    Increase in Advances/Receivables/Prepayments                                              (14,554,780)       (14,782,027)           (511,426)                              768,101           (29,428)          -              (4,170,099)
    Increase in Accounts Payable                                                                1,232,809                -               774,246                -              659,128          (200,565)          -               1,295,584
    Decrease in Other Liabilities                                                                  (6,017)               -              (154,526)               -           (1,459,696)        2,059,014      (450,809)            1,668,178
    Increase in Annual funded Leave Liabilities                                                 1,311,427                -                   -                  -                  -           1,311,427           -               1,216,743

 Total Adjustments                                                                           (103,988,676)       (31,529,221)         (5,786,873)                   -      (15,169,807)      (50,432,252)    (1,070,523)         (39,302,352)

    Net Cash Used in Operating Activities                                               $    (103,570,521) $     (31,529,221) $       (5,786,873) $                 - $ (15,169,807) $ (50,014,097) $        (1,070,523) $       (35,025,520)

  Cash Flows from Investing Activities

    Purchase of Property                                                                $        (871,727) $                 - $                 - $                - $                - $     (871,727) $               - $      (4,244,059)
    Net Cash Used in Investing Activities                                               $        (871,727) $             -     $             -     $            -     $            -     $     (871,727) $           -     $      (4,244,059)

  Cash Flows from Financing Activities
    Appropriations received net of recissions                                           $ 1,752,300,000 $ 1,347,002,655 $             39,895,345 $      248,230,000 $      40,000,000 $      75,000,000 $    2,172,000 $ 1,488,000,000
    Transfers Out                                                                           (75,000,000)                                                (75,000,000)                                                       (80,000,000)
    Net Cash Provided by Financing Activities                                             1,677,300,000   1,347,002,655               39,895,345        173,230,000        40,000,000        75,000,000      2,172,000   1,408,000,000

    Net Increase in Cash                                                                    1,572,857,752      1,315,473,434          34,108,472        173,230,000        24,830,193        24,114,176      1,101,477         1,368,730,421

    Fund Balance with Treasury, Beginning                                                   2,358,547,000      2,295,198,340          21,843,188         20,000,000         7,370,311        13,453,302        681,859          989,816,579

    Fund Balance with Treasury, Ending                                                  $ 3,931,404,752 $ 3,610,671,774 $             55,951,660 $      193,230,000 $      32,200,504 $      37,567,478 $    1,783,336 $ 2,358,547,000




     The footnotes are an integral part of these financial statements




                                                                        Page 38 of 48
Millennium Challenge Corporation
Statements of Budgetary Resources
For the Year Ended September 30, 2006 With Summary Totals for 2005



                                                                                                                 Pre-Compact                      Evaluation and
                                                                               2006 Total       Compacts           Funding         Threshold         Support       Administrative     Audit         2005 Total
 Budgetary Resources:
           Budget Authority:
                      Appropriations                                           1,770,000,000    1,364,702,655       39,895,345      248,230,000      40,000,000        75,000,000     2,172,000     1,500,000,000
                      Net Transfer, Current Year Authority
           Unobligated Balance - Beginning of Period                           2,053,722,184    1,972,926,264       15,544,354       65,251,566                                                      986,171,577
           Unobligated Balance - Transferred
           Spending Authority from Offsetting Collections                                   -
           Advances Received                                                                -
           Adjustments:
                     Recoveries of Prior Years Obligations                               -
                     Permanently Not Available (Note 7)                        (17,700,000)    (17,700,000)                  -                -               -                 -             -     (12,000,000)
                                   Total Budgetary Resources               $ 3,806,022,184 $ 3,319,928,919 $        55,439,699 $    313,481,566 $    40,000,000 $      75,000,000 $   2,172,000 $ 2,474,171,577
 Status of Budgetary Resources:
           Obligations Incurred                                            $ 1,109,535,594 $ 880,536,888 $          42,849,803 $     83,230,412 $    29,635,861 $      71,110,630 $   2,172,000 $    420,449,393
           Unobligated Balance Available:
                     Apportioned                                               877,383,424     842,399,600          10,644,896       10,085,419      10,364,139         3,889,370             -     683,006,839
           Unobligated Balance Not Available:                                1,819,103,166   1,596,992,431           1,945,000      220,165,735               -                 -             -   1,370,715,345
                                   Total Status of Budgetary Resources     $ 3,806,022,184 $ 3,319,928,919 $        55,439,699 $    313,481,566 $    40,000,000 $      75,000,000 $   2,172,000 $ 2,474,171,577

 Relationship of Obligations to Outlays:
           Obligated Balance, Net - as of October 1, 2005                  $     384,862,005 $ 322,272,076 $         6,298,834 $     34,699,991 $     7,370,311 $      13,538,935 $     681,859 $      3,645,002
           Obligations Incurred                                                1,109,535,594 $ 880,536,888 $        42,849,803 $     83,230,412 $    29,635,861 $      71,110,630 $   2,172,000 $    420,449,393
           Recoveries of Prior Years Obligations                                           -
           Adjustments
           Obligated Balance, Net - End of Period
                     Accounts Payable                                           (8,881,212)              0            (774,246)             0    (1,670,526)           (6,436,440)             0     (5,335,899)
                     Obligations                                            (1,376,397,315) (1,171,279,742)        (42,587,517)  (112,225,132)  (21,566,882)          (26,954,705)    (1,783,336)  (379,526,106)
                                   Total Outlays                           $ 109,119,072 $ 31,529,222 $              5,786,873 $    5,705,271 $ 13,768,764 $           51,258,420 $    1,070,523 $   39,232,390
           Outlays:
                     Disbursements                                              109,119,072       31,529,222         5,786,873        5,705,271      13,768,764        51,258,420     1,070,523       39,232,390
                     Collections / Refunds                                                -                                                                                                                    -
                                   Net Outlays                             $    109,119,072 $     31,529,222 $       5,786,873 $      5,705,271 $    13,768,764 $      51,258,420 $   1,070,523 $     39,232,390


     The footnotes are an integral part of these financial statements




                                                                 Page 39 of 48
NOTES TO FINANCIAL STATEMENTS
(AS OF SEPTEMBER 30, 2006)
Note 1—Summary of Significant Accounting Policies
      A. Basis of Presentation
      The accompanying financial statements have been prepared to report the financial
      position, results of operations, cash flows, and budgetary resources for MCC (the
      Corporation), as required by Section 613 of the Millennium Challenge Act of 2003
      and the Government Corporation Control Act (31 U.S.C. §9106). These financial
      statements have been prepared from the books and records of the Corporation and are
      presented in accordance with the applicable requirements of OMB, the Secretary of
      the Treasury, and the Government Management and Reform Act of 1994.

      The Corporation’s accounting policies conform to and are consistent with generally
      accepted accounting principles for the Federal government, as promulgated by OMB
      and prescribed by the Federal Accounting Standards Advisory Board (FASAB).

      The Corporation’s principal financial statements are:

      `    Statement of Financial Position;
      `    Statement of Operations and Changes in Net Position;
      `    Statement of Functional Expenses;
      `    Statement of Cash Flows; and
      `    Statement of Budgetary Resources.

      MCC has presented comprehensive statements for fiscal year 2006, with summary
      totals for 2005 for comparative purposes. These notes are considered an integral part
      of the financial statements.

      B.    Reporting Entity
      The Corporation was formed in January 2004 pursuant to the Millennium Challenge
      Act of 2003 (Public Law 108-199). The Corporation’s mission is to provide United
      States assistance to eligible countries for global development. The assistance is
      intended to provide economic growth and the elimination of extreme poverty,
      strengthen good governance, encourage economic freedom, and promote investments
      in people.

      C.    Budgets and Budgetary Accounting
      The Corporation’s programs and activities are funded through no-year appropriations.
      Such funds are available for obligation without fiscal year limitation and remain


                                    Page 40 of 48
available until expended. MCC was provided total appropriations of almost $1.8
billion and $1.5 billion in FY 2006 and FY 2005, respectively. OMB apportions
MCC administrative funds on an annual basis pursuant to statutory limitations in the
appropriations bill. In addition, MCC receives from OMB a separate apportionment
for due diligence funds, which MCC uses for compact evaluations and support,
compact programs, 609(g) funds, the Threshold Program, and audit funds. Because
of the no-year status of MCC appropriations, unobligated administrative, audit and
due diligence funds (apportioned on annual bases) are not returned to Treasury.
MCC’s policy is to transfer any unobligated balances as of September 30, for these
three categories of funds to compact funds at the beginning of the subsequent fiscal
year.

D.   Basis of Accounting
Financial transactions are recorded on accrual and budgetary bases in accordance
with pertinent Federal accounting and financial reporting requirements. Under the
accrual method of accounting, financing sources are recognized when used and
expenses are recognized when incurred, without regard to receipt or payment of cash.
Budgetary accounting facilitates the Corporation’s compliance with legal constraints
and controls over the use of Federal funds.

The accompanying Statements of Financial Position, Operations and Changes in Net
Position, Cash Flows, and Functional Expenses have been prepared on the accrual
basis. The Statement of Budgetary Resources has been prepared in accordance with
budgetary accounting rules. The Statement of Cash Flows has been prepared to
reconcile budgetary to financial (proprietary) accounting information.

E.   Fund Balance with Treasury
The Corporation does not maintain cash in commercial bank accounts. Rather, the
Corporation’s funds are maintained in Treasury accounts. The Department of the
Treasury processes all cash receipts and disbursements for the Corporation. The
Fund Balances with Treasury represent no-year funds, which are maintained in
appropriated funds that are available to pay current and future commitments.

F.   Advances to Others
The Corporation advances funds in response to compact countries and Federal agency
drawdown requests in order to implement compact projects in an MCA country or
inter-agency agreements. Funds advanced to compact countries are used to pay
legitimate costs and expenses incurred per the formal compacts entered into by MCC
and the countries.




                             Page 41 of 48
G.   Property and Equipment
The Corporation’s accounting policies require that property and equipment with
original cost of $25,000 or more and an estimated useful life of two or more years to
be capitalized. Such assets include leasehold improvements, telephone equipment,
computer systems equipment, copiers, computer software, furniture, and assets under
capital leases. The assets are to be depreciated (or amortized) over their estimated
useful lives.

H.   Compacts and Pre-Compact (609(g))Funding Payable
Compact funding, including 609(g) funds, are made to eligible countries with
approved Compact or pre-Compact funding agreements. Upon formally entering into
a compact with a country, the Corporation records a commitment of funds (i.e.,
administrative reservation) in its financial records for the total value of the compact.
Once a compact enters into force, the value of the compact is obligated on MCC’s
financial books (and the related commitment reduced/liquidated). At the end of the
fiscal year, the Corporation records the total estimated amount of compact expenses
incurred for work performed but not paid as liquidations of the advances. The
estimated amount of such expenses at September 30, 2006 and September 30, 2005,
were $1.956 million and $0, respectively.

I.   Accounts Payable
The Corporation records as liabilities all amounts to others as a direct result of
transactions or events that have occurred. Accounts payable represent amounts due to
both Federal and non-federal entities for goods and services received by the
Corporation, but not paid at the end of the fiscal year.

J.   Actuarial FECA Liability
The Federal Employees’ Compensation Act (FECA) provides income and medical
cost protection to covered Federal civilian employees injured on the job, employees
who have incurred a work-related occupational disease, and beneficiaries of
employees whose deaths are attributable to a job-related injury or occupational
disease.

Claims incurred for benefits for Corporation employees under FECA are administered
by the Department of Labor (DOL) and later billed to the Corporation. The
Corporation’s actuarial liability for workers’ compensation includes any costs
incurred but unbilled as of year-end, as calculated by DOL, and is not funded by
current appropriations.

The Corporation incurred no FECA liabilities during fiscal years 2006 and 2005.


                               Page 42 of 48
K.   Other Liabilities
Other liabilities include amounts owed, but not paid, at the end of the fiscal year for
employee payroll and benefits and Federal Employees’ Compensation Act charges
(see Exhibit 13).

L.   Accrued Annual Leave
The value of employees’ unused annual leave at the end of the fiscal year is accrued
as a liability. At the end of each fiscal year, the balance in the accrued annual leave
account is adjusted to reflect current year pay rates and leave balances. Annual leave
is funded from current appropriations. Sick leave and other types of non-vested leave
are expensed when used and, in accordance with Federal requirements, no accruals
are recorded for unused leave.

M.   Net Position
Net position is composed of unexpended appropriations and cumulative results of
operations. Unexpended appropriations are funds appropriated by the Congress to the
Corporation that are still available for expenditure at the end of the fiscal year.
Cumulative results of operations represent the net differences between financing
sources and expenses from the Corporation inception.

N.   Financing Sources
Per note 1.C, the Corporation funds its program and operating expenses through no-
year appropriations. Appropriations are recognized as an accrual-based financing
source at the time they are used to pay program or administrative expenses, except for
expenses to be funded by future appropriations.

O.   Retirement Benefits
The Corporation’s employees participate in either the Civil Service Retirement
System (CSRS) or the Federal Employees Retirement System (FERS). FERS was
established by Public Law 99-335. Pursuant to this law, most employees hired after
December 31, 1983 are covered by FERS and Social Security. Employees hired prior
to January 1, 1984, were allowed to elect whether they desired to participate in FERS
(with Social Security coverage) or remain in CSRS.

For employees covered by CSRS, the Corporation contributes seven percent of their
gross pay towards their retirement benefits. For those employees covered by FERS,
the Corporation contributes 11 percent of their gross pay towards retirement.
Employees are also allowed to participate in the Federal Thrift Savings Plan (TSP).
For employees under FERS, the Corporation contributes an automatic one percent of
basic pay to TSP and matches employee contributions up to an additional four percent


                              Page 43 of 48
of pay, for a maximum Corporation contribution amounting to five percent of pay.
Employees under CSRS may participate in the TSP, but will not receive either the
Corporation’s automatic or matching contributions.

During FY 2006, the Corporation made retirement contributions of $761,000 to
CSRS; $1.977 million to FERS; and $620,700 to TSP. In FY 2005 the Corporation
made contributions of $30,000 to CSRS, $876,000 to FERS and $226,000 to TSP.

P.   Use of Estimates
The preparation of financial statements requires management to make estimates and
assumptions that affect the reported amounts of assets and liabilities, the disclosure of
contingent assets and liabilities at the date of the financial statements, and the
reported amounts of financing sources and expenses during the reporting period.
Actual results could differ from such estimates.

Q.   Contingencies
The Corporation can be a party to various routine administrative proceedings, legal
actions, and claims brought by or against it, including threatened or pending litigation
involving labor relations claims, some of which may ultimately result in settlements
or decisions against the Corporation. In the opinion of the Corporation’s
management and legal counsel, there are no proceedings, actions or claims
outstanding or threatened, which would materially impact the Corporation’s financial
statements.

R.   Judgment Fund
Certain legal matters to which the Corporation can be named as a party may be
administered and, in some instances, litigated and paid by other Federal agencies. In
general, amounts paid in excess of $2,500 for Federal Tort Claims Act settlements or
awards pertaining to these litigations are funded from a special appropriation
administered by the Department of Treasury, called the Judgment Fund. Although
the ultimate disposition of any potential Judgment Fund proceedings cannot be
determined, management does not expect any liability or expense that might ensue
would be material to the Corporation’s financial statements.

S.   Custodial Receivables and Liabilities
Under current policy and procedures, the Corporation funds all Compacts with other
countries by advancing funds to cover projected needs, generally for a forthcoming
three-month period. Such funds provided to the countries are required to be deposited
in interest-bearing accounts, if legally feasible, until disbursed. The interest earned
on these accounts is remitted to the Corporation and deposited into an account at the


                               Page 44 of 48
       U.S. Treasury. Such interest may not be retained or used by the Corporation, but
       periodically is returned to the Treasury’s general funds. As of September 30, 2006,
       receivables for amounts of interest to be remitted by the countries and the related
       liabilities are not reflected in these financial statements. As of September 30, 2006,
       the Corporation had outstanding advances related to compact financing of
       approximately $16.6 million. During FY 2006 the Corporation received and
       deposited $304,000 in interest remittances. At the end of FY 2006, approximately
       $174,000 of interest earned on compact advances to the MCAs was due to be remitted
       to MCC. At the end of FY 2005, the Corporation had advances of $1.8 million and
       received interest remittances of approximately $17,000 during the year.


Note 2—Fund Balance with Treasury
      The U.S. Treasury accounts for all U.S. Government funds on an overall
      consolidated basis. The Fund Balance with Treasury line items on the Statements of
      Financial Position for FY 2006 and FY 2005 consisted of amounts presented in the
      following table.

                                 Fund Balances with Treasury
                                       (in thousands)
                     Appropriated
                       Funds                 2006              2005
                   Unobligated            $ 2,546,127       $ 1,973,685
                   Obligated                1,385,278           384,862
                   Total                  $ 3,931,405       $ 2,358,547



Note 3—Advances/Accounts Receivable
      Advances reflect amounts provided to MCA compact countries and other Federal
      agencies, in accordance with formal compacts or inter-agency agreements,
      respectively. Accounts receivable reflect overpayments of payroll and travel
      expenses to current employees of the Corporation. As such, no allowance for
      doubtful accounts is necessary. As of September 30, 2006, the Corporation reported
      $18.9 million in advances and receivables, of which $18.8 million related to advances
      for compact implementation and approximately $62,000 for receivables.


Note 4—Fixed Assets
      The Corporation’s fixed (capital) assets are predominantly comprised of leasehold
      improvements related to the MCC headquarters offices located in Washington, DC.
      As of September 30, 2006, the Corporation reported $5.1 million of which $4.8
      million represented leasehold improvements and $280,000 represented capitalized




                                      Page 45 of 48
       equipment. At the end of the fiscal year, $483,000 of amortization and depreciation
       had been recorded for the two categories of assets.


Note 5—Other Liabilities
      The Corporation is liable for amounts owed to other parties, including employees and
      other Federal groups. The following table presents the amounts of such liabilities as
      of September 30, 2006 and 2005.

                                               Other Liabilities
                                                 (in dollars)
                      Type                                 2006                             2005
        Evaluation and Support                        $ (461,744)*                         $ 997,921
        Travel                                             300,000                          747,143
        Office of the Inspector General                          0                          450,809
        Miscellaneous                                    1,566,695                          326,935
        Payroll                                          1,111,865                                0
        Total                                         $ 2,516,786                        $ 2,522,808

       * This amount represents the difference in funds drawn from MCC’s accounts by other Federal parties per
       inter-agency agreements (through the Department of the Treasury’s Intra-governmental Payment and
       Collection System (IPAC)) and the liability amounts recorded by MCC. In short, as of September 30, 2006,
       other Federal entities had drawn approximately $1.401 million from MCC’s accounts with Treasury. MCC
       had recorded liabilities of $.939 million for the pertinent charges—$.462 million less than the amounts
       “drawn” by the entities. At the end of the fiscal year, MCC and its financial services provider (the
       Department of Interior’s National Business Center) were researching the differences and reconciling
       supporting records.




Note 6—Net Position
      The reported net position consists of unexpended appropriations and cumulative
      results of operations, which reflects the difference between financing sources and
      expenses since the Corporation’s inception.

       The following table presents total obligated and unobligated compact and 609(g)
       funds as of September 30, 2006 and 2005.




                                               Page 46 of 48
         Total Obligated and Unobligated Compact and 609(g) Funds (in dollars)

                             2006            Compacts           609(g) Funding          2005
Obligations
 Armenia                    $   235,646,17     $   235,150,00          $       49
 Benin                         1,062,985                              1,062,985
 CapeVerde                   106,077,520        106,014,782              62,738             $
 Georgia                     296,178,084        292,802,057           3,376,027           4,111,000
 Ghana                        13,584,891                             13,584,891              48,688
 Honduras                    213,166,147        213,166,147                             215,000,000
 Lesotho                         902,934                                902,934             600,000
 Madagascar                  103,290,130        101,990,130           1,300,000         110,378,000
 Mali                          4,421,534                              4,421,534
 Mozambique                   12,956,078                             12,956,078
 Nicaragua                   173,583,320        173,529,975              53,345
 Senegal                       4,882,237                              4,882,237
 Vanuatu                      65,214,603         65,214,603
 Total Obligations        $ 1,230,966,637    $ 1,187,867,694        $        43,098,9   $   330,222,30
Commitments
 Benin                      $   305,781,62     $   305,761,55               $
 CapeVerde                             –                                                $ 110,078,48
 Georgia                               –                                                 295,300,000
 Ghana                       536,638,050        536,638,050                                2,870,502
 Mali                          4,606,861                                4,606,861
 Mozambique                            –                                                   6,000,000
 Nicaragua                             –                                                 175,000,000
 Senegal                         425,658                                    425,658        6,528,299
Total Commitments           $ 847,452,19       $   842,399,60           $      5,052    $ 595,777,28




 Note 7—Permanent Rescission
       In FY 2006 and FY 2005, respectively, $17.7 million and $ 12 million of amounts
       previously appropriated under the FY 2006 and FY 2005 Foreign Operations, Export
       Financing, and Related Programs Appropriations Acts (Public Law 109-148 and
       Public Law 108-447, respectively), were rescinded. The rescissions were part of the
       Across-the-Board Rescissions enacted for FY 2006 and FY 2005, respectively.


 Note 8—Inter-Agency Agreements

         MCC is party to various inter-agency agreements (IAA) with other Federal agencies
         for services to be provided by those entities. Such services include financial, travel
         management and other administrative functions; technical and engineering services,
         personnel background records checks; and information technology services. During
         FY 2006, MCC executed 20 IAAs with other Federal agencies totaling almost $9.1
         million. At the end of the year, approximately $6.8 million remained available for


                                       Page 47 of 48
        paying future services to be provided under the subject IAAs. The following table
        provides a summary of the IAAs by Federal entity.


                          Fiscal Year 2006 Inter-agency Agreements

                 AGENCY                       NUMBER        DOLLAR       REMAINING FUNDS –
                                              OF IAAs        VALUE          END OF FY

NBC, Dept. of Interior                            6         $1,216,313          $          0

State Dept.                                       4           437,668                242,160

U.S. Agency for International Development         1           140,000                140,000

Dept. of Agriculture                              1           228,478                 44,820

U.S. Army Corps of Engineers                      3          5,441,379              5,004,390

Dept. of Transportation                           1           109,083                 83,794

Dept. of Health and Human Services                1          1,500,000              1,241,422

Dept. of Labor                                    1              2,912                     0

Government Printing Office                        1             3,000                  3,000

Office of Personnel Management                    1              5,000                   220

Total                                            20         $9,083,833           $6,759,806




                                            Page 48 of 48
U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave, NW 

         Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
